<html>
<title> - NATIONAL MISSILE DEFENSE AND THE ABM TREATY</title>
<body><pre>[Senate Hearing 105-199]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 105-199
 
              NATIONAL MISSILE DEFENSE AND THE ABM TREATY

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                   U.S. GOVERNMENT PRINTING OFFICE
40-586cc                   WASHINGTON : 1997
_______________________________________________________________________

For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk
                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
DON NICKLES, Oklahoma                ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                Linda Gustitus, Minority Staff Director
                       Julie Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1

                               WITNESSES
                         Thursday, May 1, 1997

Hon. John D. Holum, Director, Arms Control and Disarmament Agency     2
    Prepared statement...........................................     4

                                APPENDIX

Charts on ABM Treaty Issues......................................    21


              NATIONAL MISSILE DEFENSE AND THE ABM TREATY

                              ----------                              


                         THURSDAY, MAY 1, 1997

                                   U.S. Senate,    
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The committee will please come to order. I 
apologize for the delay in commencing the hearing.
    I would like to first welcome everyone to today's hearing 
of the Governmental Affairs Subcommittee on International 
Security, Proliferation, and Federal Services. Our topic for 
discussion today is ``National Missile Defense and the Anti-
Ballistic Missile Treaty.'' The administration's plan for 
national missile defense--the ``3+3'' program--appears to have 
serious problems, one of which is the possible conflict with 
provisions of the 1972 Anti-Ballistic Missile Treaty.
    Legislation calling for the deployment of national missile 
defense has been criticized by the administration for allegedly 
requiring violation of the ABM Treaty. For example, commenting 
on the 1996 Defense Authorization Bill--which the President 
vetoed--former Secretary of Defense William Perry said it would 
have ``put us on a pathway to abrogate the ABM Treaty . . .'' 
Ashton Carter, former Assistant Secretary of Defense for 
International Security Policy, said the bill ``obliges us to 
violate or ignore the ABM Treaty.'' And President Clinton, in 
explaining why he would veto last year's Defend America Act, 
said it would ``violate the arms control agreements that we 
have made and that make us more secure.''
    The administration said that its ``3+3'' NMD plan 
contrasted sharply with past Republican proposals. The ``3+3'' 
plan, according to some administration spokesmen, was better 
because it could defend America from limited ballistic missile 
attack without violating the ABM Treaty.
    Secretary Perry told the Senate that ``There is nothing we 
are doing now or planning to do which would be in violation of 
the ABM Treaty.'' Lieutenant General O'Neill, then Director of 
the Ballistic Missile Defense Organization, said that ``Within 
the confines of the language of the ABM Treaty, we can and will 
build missile defenses to meet our national security needs.''
    And in an August 1995 letter to the editor of USA Today 
recommending a veto of the Senate NMD proposal, Robert Bell of 
the National Security Council staff said that the Pentagon's 
``3+3'' plan ``complies with the ABM Treaty and does not 
threaten to undo our strategic arms agreement.  . . .''
    Now the administration seems to be changing its story, by 
saying that only the development phase of the NMD program will 
be ABM Treaty-compliant, while the system ultimately deployed 
``might require modification of the Treaty.'' The recent DOD 
request for proposals for the ``3+3'' lead systems integrator 
contract states that ``Treaty compliance of the deployed NMD 
system is not a requirement, and will not be evaluated as part 
of the source selection process.''
    Members of this Subcommittee were recently told by the 
Director of BMDO that, contrary to previous administration 
statements, all of the ``3+3'' options under consideration by 
the administration pose ABM Treaty problems.
    These recent statements indicate the administration 
realizes that its own plan to protect America from ballistic 
missile attack, even a limited attack, could be in conflict 
with the 25-year-old ABM Treaty. In today's hearing, we will 
examine the extent to which ``3+3'' proposals are compatible 
with the ABM Treaty, and the administration's plan for 
addressing any incompatibilities.
    If negotiations to modify the ABM Treaty are part of that 
plan, we would like to know what provisions have been made for 
these negotiations in the ``3+3'' program schedule. This is 
particularly important given the failure--after 3\1/2\ years of 
negotiations--to reach agreement on a clarification of the ABM 
Treaty regarding theater missile defenses.
    Today, we are pleased to welcome to this hearing John 
Holum, Director of the Arms Control and Disarmament Agency. Mr. 
Holum heads the agency responsible for negotiating, 
implementing, and verifying the Nation's arms control 
agreements. We will benefit both from his expertise on treaty 
issues and his experience directing arms control negotiations.
    Mr. Holum, thank you very much for your attendance at our 
hearing. We appreciate that very much. And we encourage you to 
proceed with your statement. We will make a point of including 
your entire statement in the record as it is submitted, and 
encourage you to make whatever comments or remarks in 
connection with that statement that you think would be helpful 
to the Subcommittee. Thank you.

  TESTIMONY OF HON. JOHN D. HOLUM, DIRECTOR, ARMS CONTROL AND 
                       DISARMAMENT AGENCY

    Mr. Holum. Thank you, Mr. Chairman. My statement is quite 
short, so I will run through it quickly.
    Since February of 1996, as you know, the administration has 
been committed to developing a system that could defend the 
United States against a potential limited strategic ballistic 
missile threat from rogue states and that would have some 
capability to defend against a small accidental or unauthorized 
launch from more nuclear-capable states.
    In response to the Chairman's invitation, I am pleased to 
have the opportunity today to present the administration's 
views on the prospects for negotiating amendments to the ABM 
Treaty, should that become necessary as a result of a future 
decision to deploy a National Missile Defense System.
    I want to make it clear that I am not speaking on the 
programmatic aspects of NMD, NMD deployment decision criteria, 
or on OSD's procedures for determining the ABM Treaty 
compliance of any NMD system or its components. My colleagues 
in the Defense Department have the lead responsibility for 
those issues.
    I want to stress at the outset that the administration is 
fully committed to the ABM Treaty as a cornerstone of strategic 
stability. President Clinton reaffirmed that commitment 
following the administration's review in 1993 of ballistic 
missile defense policy and the ABM Treaty.
    Moreover, in February of 1996, following a thorough review 
of the U.S. ballistic missile defense program, when Secretary 
Perry announced the decision to establish a National Missile 
Defense deployment readiness, or ``3+3'' program, the 
administration stated that our commitment to the ABM Treaty 
remained unchanged. Finally, President Clinton repeated our 
commitment to the Treaty in the context of the Helsinki summit.
    I believe it is premature to speculate on whether, or when, 
we may need to seek to negotiate changes to the ABM Treaty in 
the event of a future U.S. decision to deploy a national 
missile defense. It is even more premature to speculate 
hypothetically about specific changes to the Treaty that might 
be required to permit an NMD deployment that we might select.
    Nevertheless, it is my understanding that the evaluation of 
Treaty issues within the Defense Department will be 
accomplished in a timeframe that is supportive of the DOD NMD 
program schedule. This should allow compliance analysis to be 
based on concrete system designs without delaying the program's 
schedule.
    Our NMD policy is that our NMD development program will be 
compliant with the ABM Treaty. If there is a decision to deploy 
a NMD, we would determine whether the system we intend to 
deploy would comply with the ABM Treaty. If we determined that 
deployment of an NMD system required modifications to the ABM 
Treaty, we would seek agreement with our ABM Treaty partners. 
Indeed, the Treaty, as you know, contains a mechanism for its 
amendment.
    Recognizing that the ABM Treaty is a ``living'' Treaty, we 
have stressed to the Russians and others that for it to remain 
viable, it must be adaptable to changing political or 
technological circumstances. For example, we have taken a 
cooperative approach to implementation of the Treaty in 
negotiations with Russia and other potential successors on 
demarcation between theater ballistic missile defense and ABM 
systems. We would view any future NMD negotiation in the same 
light.
    However, proposing changes to the Treaty and conducting 
such negotiations now would be premature--we are now only in 
the early developmental phase of the program. At present, none 
of the so-called rogue states have the capability to attack the 
territory of the United States with ballistic missiles. The 
Department of Defense has not selected a specific architecture 
for a system. Thus, no USG decisions have been made about 
whether it will be compliant with the Treaty and whether any, 
and what kind of, Treaty amendments it would necessitate.
    We must expect, however, that any future negotiations with 
other treaty parties to amend the ABM Treaty would also be 
difficult. It is not possible at this point to predict what the 
reaction of Russia and the other states would be to proposals 
to amend the Treaty. During the TMD demarcation negotiations, 
both sides have been tough defenders of what they regard as 
their security interests. Russia has made clear the importance 
it attaches to the viability of the ABM Treaty and to continued 
U.S. compliance with the Treaty as a prerequisite for further 
negotiated reductions in Russian strategic forces.
    At the same time, the Russians have also recognized the 
need to respond to the threat of ballistic missile 
proliferation, and agree with us on the need to develop and 
field effective systems to counter shorter-range ballistic 
missile threats.
    Russia's willingness to accept any future proposed changes 
to the ABM Treaty to permit a National Missile Defense System 
against limited ballistic missile threats will in the first 
instance depend on their assessment of the compatibility of 
deployment of limited missile defense systems with their 
security and deterrence requirements.
    In our dialogue with Russia, we continue to stress that our 
NMD programs are not directed against Russia's nuclear 
deterrent nor will our NMD programs provide the capability to 
threaten that deterrent. But Russian willingness to amend the 
Treaty would also depend on the commonality of interests, 
including cooperation and their assessment of the threat. The 
Russians might also want to reassess their own requirements in 
light of ballistic missile proliferation developments in their 
region.
    In conclusion, Mr. Chairman, the administration is 
committed both to the ABM Treaty and the development of an NMD 
capability. If a rogue state missile threat emerges that 
requires deployment of an NMD system, such a system could 
require modifications to the ABM Treaty; however, it would not 
be incompatible with the central purpose of the ABM Treaty--
that is, the preservation of strategic stability and the 
achievement of further strategic offensive force reductions as 
part of the START process.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Holum follows:]

                    Prepared Statement of Mr. Holum

    Since February 1996, the administration has been committed to 
developing a system that could defend the United States against a 
potential limited strategic ballistic missile threat from rogue states 
and that would have some capability to defend against a small 
accidental or unauthorized launch from more nuclear-capable states. In 
response to the Chairman's invitation, I am pleased to have the 
opportunity today to present the administration's views on the 
prospects for negotiating amendments to the ABM Treaty should that 
become necessary as a result of a future decision to deploy a National 
Missile Defense system. I want to make it clear that I am not speaking 
on the programmatic aspects of NMD, NMD deployment decision criteria, 
or on OSD's procedures for determining the ABM Treaty compliance of any 
NMD system or its components. My colleagues in the Defense Department 
have the lead responsibility for those issues.
    I want to stress at the outset that the administration is fully 
committed to the ABM Treaty as a cornerstone of strategic stability. 
President Clinton reaffirmed that commitment following the 
administration's review in 1993 of ballistic missile defense policy and 
the ABM Treaty. Moreover, in February of 1996, following a thorough 
review of the U.S. ballistic missile defense program, when Secretary 
Perry announced the decision to establish a National Missile Defense 
deployment readiness (or ``3 plus 3'') program, the administration 
stated that our commitment to the ABM Treaty remained unchanged. 
Finally, President Clinton repeated our commitment to the Treaty in the 
context of the Helsinki summit.
    I believe it is premature to speculate on whether, or when, we may 
need to seek to negotiate changes to the ABM Treaty in the event of a 
future U.S. decision to deploy a national missile defense. It is even 
more premature to speculate hypothetically about specific changes to 
the Treaty that might be required to permit an NMD deployment that we 
might select. Nevertheless, it is my understanding that the evaluation 
of Treaty issues within the Defense Department will be accomplished in 
a timeframe that is supportive of the DOD NMD program schedule. This 
should allow compliance analysis to be based on concrete system designs 
without delaying the program's schedule.
    Our NMD policy is that our NMD development program will be 
compliant with the ABM Treaty. If there is a decision to deploy NMD, we 
would determine whether the system we intend to deploy would comply 
with the ABM Treaty. If we determined that deployment of an NMD system 
required modifications to the ABM Treaty, we would seek agreement with 
our ABM Treaty partners. Indeed, the Treaty contains a mechanism for 
its amendment.
    Recognizing that the ABM Treaty is a ``living'' Treaty, we have 
stressed to the Russians and others that for it to remain viable, it 
must be adaptable to changing political or technological circumstances. 
For example, we have taken a cooperative approach to implementation of 
the Treaty in negotiations with Russia and other potential successors 
on demarcation between theater ballistic missile defense and ABM 
systems. We would view any future NMD negotiation in the same light.
    However, proposing changes to the Treaty and conducting such 
negotiations now would be premature--we are now only in the early 
developmental phase of the program. At present, none of the so-called 
rogue states have the capability to attack the territory of the United 
States with ballistic missiles. The Department of Defense has not 
selected a specific architecture for a system. Thus, no USG decisions 
have been made about whether it will be compliant with the Treaty and 
whether any, and what kind of, Treaty amendments it would necessitate.
    We must expect, however, that any future negotiations with other 
treaty parties to amend the ABM Treaty would also be difficult. It is 
not possible at this point to predict what the reaction of Russia and 
the other states would be to proposals to amend the Treaty. During the 
TMD demarcation negotiations, both sides have been tough defenders of 
what they regard as their security interests. Russia has made clear the 
importance it attaches to the viability of the ABM Treaty and to 
continued U.S. compliance with the Treaty as a prerequisite for further 
negotiated reductions in Russian strategic forces. At the same time, 
the Russians have also recognized the need to respond to the threat of 
ballistic missile proliferation, and agree with us on the need to 
develop and field effective systems to counter shorter-range ballistic 
missile threats.
    Russia's willingness to accept any future proposed changes to the 
ABM Treaty to permit a National Missile Defense System against limited 
ballistic missile threats will in the first instance depend on their 
assessment of the compatibility of deployment of limited missile 
defense systems with their security and deterrence requirements. In our 
dialogue with Russia, we continue to stress that our NMD programs are 
not directed against Russia's nuclear deterrent nor will our NMD 
programs provide the capability to threaten that deterrent. But Russian 
willingness to amend the Treaty would also depend on the commonality of 
interests, including cooperation and their assessment of the threat. 
The Russians might also want to reassess their own requirements in 
light of ballistic missile proliferation developments in their region.
    In conclusion, the administration is committed both to the ABM 
Treaty and the development of an NMD capability. If a rogue state 
missile threat emerges that requires deployment of an NMD system, such 
a system could require modifications to the ABM Treaty; however, it 
would not be incompatible with the central purpose of the ABM Treaty--
that is, the preservation of strategic stability and the achievement of 
further strategic offensive force reductions as part of the START 
process.

    Senator Cochran. Thank you very much for your statement.
    In the first article of the ABM Treaty there is a provision 
as follows: ``Each party undertakes not to deploy ABM systems 
for defense of the territory of its country.'' Last Friday, we 
were advised that the Department of Defense has awarded $16 
million worth of contracts for the ``3+3'' lead system 
integrator. The request for proposals for the lead system 
integrator says the NMD system will provide defense of all 
territory in the 50 States.
    On its face, the ABM treaty seems to say that any system 
capable of protecting all of the United States, even if it is 
from a limited long-range ballistic missile threat, is 
prohibited by the treaty. In your view, is any NMD program, to 
include ``3+3'', fundamentally incompatible with Article I of 
the ABM Treaty?
    Mr. Holum. Mr. Chairman, that is a question that we have 
not specifically determined. And the basic reason is that we do 
not have a system architecture. It is possible to imagine a 
national missile defense system that would clearly violate the 
treaty. There are others that would be closer questions.
    And our approach to this--and it originates, as you know, 
in the Department of Defense in the Compliance Review Group--is 
to wait until there is a specific program architecture or until 
the details are sufficiently developed to make it possible to 
examine not only the compatibility with the treaty but, more 
specifically, what amendments to the treaty would be necessary, 
if any, in order to permit deployment to proceed. That would 
give us our negotiating instructions, our working papers for 
negotiations. But until we have that structure, we have not 
gone through the formal process to make a determination.
    Clearly, you can say that if the system required more than 
100 interceptors, based on the threat, or if the system 
required deployment at more than one site, that would violate 
the treaty and require an amendment to the treaty. But as you 
get to closer questions, we just have not made the assessment.
    Senator Cochran. Yes. Well, in connection with the system 
architecture, what if we were to build a limited NMD system 
that could protect the entire territory of the United States, 
but was only capable of shooting down one incoming missile. 
Would such a system be permitted under Article I of the treaty?
    Mr. Holum. It is conceivable. But I just do not know the 
answer, because I would have to know all of the details of the 
system and make a systematic analysis of the defensive system 
against all the provisions of the treaty to determine if it 
could go forward.
    The key point, it seems to me, Mr. Chairman, is that what 
we will do, what our colleagues in the Department of Defense 
will do, is design a system as the threat emerges to answer the 
threat. The determinant of the character of that system will be 
the threat, not the treaty. But then once the system has been 
selected, once the architecture has been selected, we will 
assess specifically what amendments are required, and commence 
negotiations to adopt them.
    And we certainly do not limit, as you indicated, the 
developmental work to systems that would clearly be in 
compliance with the treaty.
    Senator Cochran. Has your agency, ACDA, attempted to 
research this in terms of getting an opinion from the ACDA 
general counsel, or exploring with the Russians what their 
reaction would be to the meaning of the language of Article I 
in connection with a limited national missile defense system?
    Mr. Holum. We have not undertaken that type of a discussion 
with the Russians, no. We have continuous discussions 
internally, informally, on the meaning of the various articles 
of the treaty, but we do not have a formal conclusion.
    Senator Cochran. I know there was a provision in the 
Helsinki summit statement that President Clinton and President 
Yeltsin issued that related to theater missile defense, trying 
to outline the content of future negotiations and a possible 
agreement on demarcation. But I do not recall whether there was 
any statement or suggestion about any negotiations in 
connection with a national missile defense system. Were there 
any such statements?
    Mr. Holum. No, there was not. But I would emphasize, 
though, that there is one consistent thread running through our 
discussions with the Russians on theater missile defense, and 
that is that it is very important that the treaty be a living 
document that allows us to maintain the strategic stability 
benefits of the treaty but at the same time address emerging 
threats. That has been the theme of our negotiations on theater 
missile defense on the demarcation issue.
    And we would carry that same principle into the context of 
national missile defense. It is quite conceivable to me that 
you can design a national missile defense against limited 
threats that would not in any way undercut the basic objectives 
of the ABM Treaty, that would in fact preserve its benefits for 
strategic stability and protecting the process of strategic 
offensive arms reductions. That would be our goal. And I think 
over time the Russians should come to accept that principle.
    Senator Cochran. It does seem confusing if we start talking 
about a system to protect the entire territory of the United 
States, that we may be running head-long into the clear 
violation of Article I of the Treaty.
    We know that there are later on two specific exceptions in 
the ABM Treaty. One permits the defense of the capital, and the 
other the defense of missile fields. And we have made a 
selection to defend the missile fields. The Russians have made 
a selection to defend the capital with a ballistic missile 
defense system.
    Are there any other exceptions which allow ABM protection 
against any, or all, of the territory of the United States that 
are spelled out in the treaty, other than those two?
    Mr. Holum. That would allow deployment of strategic 
defense?
    Senator Cochran. Yes, deployment of strategic defense to 
defend the territory of the United States.
    Mr. Holum. Not that I am aware of. If I have to correct 
this for the record, I will; but I do not know of any.
    Senator Cochran. We had a briefing, incidentally, earlier 
in the week from the program manager of the ``3+3'' program on 
the request for proposals for the lead system integrator 
contract. And it suggests that the contractor study several 
national missile defense options.
    Two of these--the so-called CI and CII architectures--
anticipate that meeting the threat from a rogue Nation might 
require the NMD site to be located outside of the Grand Forks 
ICBM deployment area, possibly in Alaska. My understanding, 
based on these briefings, is that this might be required so 
that portions of Alaska and Hawaii are not left unprotected.
    I know that the administration believes it is too early to 
make a decision to deploy an NMD system, but let us assume that 
we make that decision and the results of the BMDO work show 
that an interceptor site in Alaska is required to provide 
adequate protection for the territory or the citizens in Alaska 
and/or Hawaii. Does the ABM Treaty, in your opinion, allow such 
a deployment in Alaska; or would a decision to deploy an 
Alaskan ABM site be subject to a negotiated amendment to the 
treaty?
    Mr. Holum. I think on a broad question like that it would 
fall into the same category as the ones I mentioned earlier; 
that if you need more than 100 interceptors, or more than one 
site, then you would require an amendment to the treaty. I 
think this one would fall into that category, as well.
    But I hasten to add that I do not want to be in a position 
of making specific compliance determinations on hypothetical 
deployments. I think we need a specific system before we do 
that.
    Senator Cochran. Do you think we could make a decision to 
change our selection? For instance, if we were under the 
authority of Article III in the treaty where we selected to 
defend the Grand Forks area, the missile field, and we decided 
to change that, do we need to go back then and negotiate any 
kind of modification with our treaty partner? Or can we just 
unilaterally change that designation of deployment area, to 
Alaska, for example?
    Mr. Holum. Well, the first requirement would be that it be 
a deployment at an offensive missile site. So if it went 
elsewhere than a missile site----
    Senator Cochran. We could change the area even though it 
could defend against a missile site, could protect a missile 
site from that new area?
    Mr. Holum. Yes, you would either have to have a missile 
site there, or put the National Capital there, in order to----
    Senator Cochran. Senator Stevens would probably go for 
that.
    Senator Levin. Which one? Which capital?
    Senator Cochran. Oh, I thought you were talking about the 
Capital. He will probably go for both of them.
    I am going to yield to my good friend from Michigan for 
some questions. And I apologize to our good witness that we 
started this 30 minutes late. So I hope we are not going to 
keep you here until suppertime or anything like that, so do not 
worry. Senator Levin.
    Senator Levin. We reserve that just for the Attorney 
General.
    Mr. Holum. I see.
    Senator Levin. What is the relationship between the ABM 
Treaty and nuclear arms reductions?
    Mr. Holum. Well, I think both in principle and in practice 
there is a very intimate relationship between the two. 
Obviously, in this field, as in most others, there is a 
relationship between offense and defense. As the number of 
defensive interceptors goes up that could potentially or 
arguably intercept an offensive missile, the offensive side 
would begin to worry about the viability of its deterrent 
capability.
    That is the basic relationship that the ABM Treaty 
established in 1972, recognized in 1972; that our prospects for 
strategic arms offensive limitations depended on and were 
supported by the limitation on defense. Now, that is in 
principle.
    In practice, it is also the case that the Russian 
instrument of ratification for START I specifically relates to, 
or depends upon, the viability of the ABM Treaty. They have 
made it quite clear that their plans to go forward with START 
II ratification are also related to the ABM Treaty's viability. 
So I think in practice as well as in principle, the ABM Treaty 
remains a very important document for protection of strategic 
arms reductions.
    And we have to always keep in mind that this is a threat 
that exists today. This is a concern that exists today. These 
are missiles in being that have the potential to rain 
devastation on the United States. It is not something we can 
set aside lightly.
    Senator Levin. Now, are the reductions of offensive nuclear 
weapons by the Russians in our interest?
    Mr. Holum. Absolutely so, Mr. Levin. I recall--and I am 
sure you recall better than I do--the discussions in the 1970s 
and the 1980s about the Russian SS-18 heavy missiles, the most 
devastating weapons ever aimed at the United States, opening a 
window of vulnerability to a potential first strike because 
each one had 10 independently targetable reentry vehicles on 
300-and-some missiles that could strike an ICBM silo and 
disable weapons in a first strike.
    It has been a lead negotiating priority of the United 
States for years to eliminate those SS-18 missiles and other 
land-based multiple independently-targetable reentry vehicles. 
The START I and START II treaties, in combination, do that.
    We are not even contemplating a national missile defense of 
a kind that could do that. I have no idea what it would cost, 
or whether it is feasible. The treaties are doing that--
verifiably, certainly, and without a shot being fired. That is 
indisputably in the U.S. national interest. It is a leading 
goal of our national security strategy.
    Senator Levin. Now, S. 7, which is the National Missile 
Defense Act of 1997, requires deployment of a national missile 
defense system by the year 2003, whether or not such a 
deployment would violate the ABM Treaty. Do you believe that 
the adoption of that commitment to deploy would make it more 
likely, or less likely, or have no effect, on reductions of 
nuclear missiles by Russia?
    Mr. Holum. I think it would make the reductions less 
likely, based on the earlier answer of both the principle and 
the practice of the relationship between the ABM Treaty and 
strategic reductions. I think it is indisputable that we would 
encounter problems very early on.
    I have several problems with S. 7, several that are more 
appropriately addressed by my colleagues in the Department of 
Defense, relating to locking us in to an architecture or to a 
technology earlier than we need to be, based on the emergence 
of the threat.
    What I am most concerned about from the standpoint of the 
U.S. Arms Control and Disarmament Agency is protecting the 
process of strategic arms offensive reductions, and the time 
table for negotiating an amendment to the treaty to allow this 
within a period of about a year. It seems to me that that sets 
a clock ticking--and would in the minds of the Russians--toward 
abrogation of the ABM Treaty, because we have only a year to 
complete it.
    Senator Levin. We would only have a year to complete it 
under that bill.
    Mr. Holum. Under that bill. And that would, in itself, I 
think raise problems for the strategic arms reduction process. 
Now, that is not to say that over time we cannot successfully 
negotiate with the Russians to allow deployment of a limited 
national missile defense. But I think we need to know what kind 
of defense that is, what the specific elements of it are, and 
what amendments to the treaty are needed in order to commence 
those negotiations.
    Senator Levin. Does the ``3+3'' approach allow for that?
    Mr. Holum. Yes, it does.
    Senator Levin. Now, tell us about START III. What are the 
discussions underway about the next stage, assuming START II is 
ratified by the Russians?
    Mr. Holum. That is an important point, because the 
negotiations will not commence until the START II Treaty has 
been ratified. But President Clinton and President Yeltsin have 
agreed that we will, upon that action, be prepared to begin 
negotiating further reductions and limitations down to a level 
of 2,000 to 2,500 deployed warheads. In addition, we will look 
at new steps in the area of transparency and irreversibility, 
including reviewing the actual dismantlement of the warheads 
themselves.
    We are very interested, obviously, in beginning those 
negotiations. They will not begin until START II is ratified.
    Senator Levin. Relative to theater ballistic missile 
defenses, TMD's, does the ABM Treaty restrict the development 
of current TMD's, the ones that are currently being developed?
    Mr. Holum. No. Five of the six systems that are currently 
being developed are covered and protected under the demarcation 
agreement relating to slower fliers, those with interceptor 
velocity of 3\1/2\ kilometers per second or less. The sixth 
system, the Navy theater-wide, is clearly compliant with the 
principles established for the Part II negotiation covering 
faster fliers, which in essence allows us to make our own 
compliance determination, which we have done.
    Senator Levin. We are allowed under the agreement to make 
our own determination relative to that sixth system?
    Mr. Holum. That is right.
    Senator Levin. And we have already made that determination?
    Mr. Holum. That is right. We would agree, and I emphasize 
that the summit principles are not yet formalized in an 
agreement. But with regard to faster flying systems, we would 
use the same flight testing limitations that we have agreed to 
for slower systems. That is, they could not be tested against 
target missiles of a velocity of 5 kilometers per second or 
greater, or with a range of 3,500 kilometers or more.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Cochran. I thought it was interesting the way you 
changed your reference to that agreement, saying that it is not 
really an agreement yet. But you are referring to the statement 
that was issued by President Yeltsin and President Clinton?
    Mr. Holum. That is right.
    Senator Cochran. Contemplating that an agreement might be 
reached----
    Mr. Holum. That is right.
    Senator Cochran [continuing]. That would make the TMD 
systems treaty-compliant.
    Mr. Holum. Well, we have, independently of the Helsinki 
agreement, made a determination that the Navy theater-wide 
system is compliant.
    Senator Cochran. But that has not been the subject of any 
agreement that has been reached, or any amendment to the treaty 
that has been decided upon between the two principals?
    Mr. Holum. No.
    Senator Cochran. Now, one thing that we discussed when we 
had our briefing with the Defense officials this week was that 
one of the ingredients or elements, options, that the 
contractor was to consider under this request for proposals was 
the use of forward-based radars to help detect missile 
launches, and otherwise make an overall national missile 
defense system workable.
    If there were a forward-based radar, on the West Coast of 
the United States for example, outside the immediate area of a 
deployed national missile defense system, would that be 
consistent with the treaty, or would that be in violation of 
the treaty?
    Mr. Holum. You are getting me into an area of technical 
analysis that I do not feel prepared to pursue. For example, it 
may depend on whether the radar faced in only one direction or 
not.
    Senator Cochran. Well, Article II has a provision in it 
that says that an ABM radar is one constructed and deployed for 
an ABM role. And since we are requesting proposals from a 
contractor that specifically ask for a system to be developed 
that calls for a forward-based radar as part of that system, is 
not that radar one constructed and deployed for an ABM role?
    Mr. Holum. Mr. Chairman, I do not dispute at all, and will 
hasten to agree with you, that the request for proposals 
contemplates national missile defenses that would not be 
compliant with the ABM Treaty. That request for proposals is 
not designed to fit the treaty. It is designed from the 
Department of Defense's standpoint to develop options for 
national missile defenses against the threats we have been 
talking about.
    So it is unquestionable that this could produce recommended 
programs and a national missile defense architecture that would 
not be in compliance with the treaty. Under those 
circumstances, we would seek to negotiate an amendment to the 
treaty.
    Senator Cochran. Article III also has a provision relating 
to radars. And it says that ABM radars must be located in the 
ABM deployment area or at test ranges. That is a requirement. 
So in connection with my question about forward-deployed radars 
being requested as part of a new national missile defense 
system, it not only fits the definition of an ABM radar in 
Article II, but is clearly prohibited in Article III unless it 
is located in the ABM deployment area or a test range.
    And I think the reason my question is relevant is that the 
administration officials whom I quoted in my opening statement 
keep saying that the ``3+3'' plan, or the administration's 
proposal for a national missile defense, will comply with the 
ABM Treaty. Yet, the request for proposals is requiring a 
contractor to develop a national missile defense system which 
seems clear to me violates the ABM Treaty in a number of 
respects, and I have cited two or three right now, and there 
are more.
    But how do you rationalize that? If you are not negotiating 
now with the Russians an amendment that will permit this kind 
of system to be built, why are you spending $16 million as of 
last week on contractors to develop a system that will be out 
of compliance?
    Mr. Holum. Because, as I said, Mr. Chairman, we intend to 
negotiate an amendment to the treaty, should that prove to be 
necessary, based on the system that is produced as a result of 
these investments. But we are in a very early stage. I would 
not know what kind of amendments to negotiate to the treaty, or 
whether any amendments are necessary.
    One thing is clear, and that is that the development of a 
national missile defense system can proceed within the terms of 
the treaty. The development process is not constrained by the 
treaty. We have some period of time during the development 
phase. We also have a period of time when development may well 
continue after the first 3 years, when we are assessing the 
threat and moving up on a decision to deploy. And negotiation 
now would not only be premature but impossible, because we 
would not know what specific amendments to the treaty we might 
be required to accomplish.
    Senator Cochran. In the schedule for ``3+3''--3 years to 
develop, 3 years to deploy--where is there time to negotiate an 
agreement with the Russians? If the administration and Congress 
together agree that we have a threat that requires a national 
missile defense in order to protect the security of our 
country, where is the time to negotiate that agreement in the 
``3+3'' plan?
    Mr. Holum. It is at the point, or during the period, more 
precisely, when we have designed a system architecture, there 
has been a compliance review analysis of the architecture that 
has been fixed, and we are preparing to deploy. The actual 
completion of deployment over a period of 3 years would allow 
time from the time of the compliance review and the deployment 
decision to commence negotiations.
    Senator Cochran. One other request in the document 
submitted to the contractors, the request for proposals for the 
lead system integrator, requires the contractors to consider 
using a Minuteman ICBM system as the booster for a ground-based 
interceptor. Obviously, the Minuteman is not an ABM interceptor 
missile.
    If the United States were to decide to use the Minuteman 
ICBMs as the booster, do you think that would be compliant 
under Article VI(A) of the treaty which prohibits giving 
capabilities to counter strategic ballistic missiles to 
missiles other than ABM interceptors?
    Mr. Holum. It may, or it may not, Mr. Chairman. I just have 
not made the kind of analysis that would be necessary to 
determine that and, again, would prefer not to engage in a 
hypothetical analysis rather than making a real analysis when 
we have a specific system that we want to develop.
    Senator Cochran. Let me ask you about another possible 
conflict between the administration's proposals and actions and 
the ABM Treaty. DOD plans to incorporate the Space and Missile 
Tracking System into its national missile defense system when 
it becomes available. One possible architecture using this 
missile-tracking system would make it possible to conduct 
intercepts outside the range of the ground-based radar, making 
an ABM radar unnecessary. If we decided to deploy a national 
missile defense architecture in which a space-based sensor made 
an ABM radar unnecessary, would that sensor be regarded as a 
space-based ABM component, which is banned by Article V of the 
ABM Treaty?
    Mr. Holum. Mr. Chairman, I will have to give you the same 
answer. I just have not made a considered analysis of that 
issue.
    Senator Cochran. Senator Levin.
    Senator Levin. Who makes those analyses?
    Mr. Holum. It begins with the Compliance Review Group in 
the Department of Defense analyzing whether a particular system 
is treaty compliant.
    Senator Levin. Do you know whether they have made the 
assessment of the Chairman's hypothetical?
    Mr. Holum. No. I do not believe they have, but I would 
prefer that they answer for themselves.
    Senator Levin. I want to ask you about the ``3+3'' 
approach. That approach, as I understand it, permits us to 
consider various options and to develop a system which would 
then be ready for deployment should we decide to deploy. Is 
that correct?
    Mr. Holum. That is correct.
    Senator Levin. And that approach, the ``3+3'', allows us to 
consider a whole menu of options, some of which are treaty-
compliant and some of which are not. Is that correct?
    Mr. Holum. That is correct.
    Senator Levin. But there is a difference between 
considering options which are not treaty-compliant, and making 
a commitment now to deploy a system whether or not it complies 
with the treaty. Is that not true?
    Mr. Holum. That is correct.
    Senator Levin. I think that is kind of the heart of the 
difference. You are not denying, I gather--and you have 
explicitly said this--you are not denying that we are looking 
at options, some of which are treaty-compliant, and some of 
which are not?
    Mr. Holum. That is right. And the difference, really, 
between our approach and the approach of, for example, S. 7 is 
the timing of the deployment and the timing of the decision to 
deploy. I think the prudent approach is to continue the 
development, also to continue to watch the threat as it 
emerges--and it may or may not; we do not know the answer to 
that at this stage--and to continue to refine the development 
and advance the process until we feel a deployment decision is 
necessary; a decision that will need to be made in advance of 
the arrival of the threat, but the intelligence community is 
watching that issue closely. Then, make a decision, and go with 
the best technology available at that time, in a context where 
I think we are much more likely to be able to negotiate an 
amendment to the treaty because the security environment should 
be clear to all concerned, including our treaty partners.
    Senator Levin. So that the threat at the time the 
technology is developed, if it exists in a defined enough way 
so that the intelligence community can make an assessment that 
it needs to be addressed, would be clear enough, you believe, 
or might be clear enough, to give us a better chance at 
negotiating an amendment to the treaty, than a threat which is 
more abstract or less clear?
    Mr. Holum. That is right. Keep in mind that we, as I said 
earlier, have made clear in the theater defense demarcation 
discussions with the Russians that it is very important to us 
that the treaty be a living document and susceptible to 
modification and updating to address real security threats.
    At this stage, because the intelligence analysis is pretty 
widely available in the public realm that we are 14 years away, 
roughly, from a rogue state threat, it would clearly appear to 
our Russian colleagues that we are gratuitously trying to get 
rid of the ABM Treaty, as opposed to amending the treaty in 
light of a realistic assessment of a then-current emerging 
threat.
    I think once we have further evidence of a changing 
security environment, as has been the case with the theater 
systems, we will have a much better prospect for negotiating 
changes in the treaty.
    Senator Levin. You made the distinction between the joint 
statement which President Clinton and President Yeltsin issued 
at Helsinki and a treaty. What is the next step in negotiating 
a treaty or an agreement to implement or to embody the 
principles set forth in that joint statement at Helsinki?
    Mr. Holum. On theater missile defense, or on strategic 
reductions?
    Senator Levin. Well, whatever treaties or agreements were 
contemplated for negotiation at Helsinki, what is the next 
step? How many different treaties and agreements are there that 
are going to be negotiated to embody and implement the concepts 
and the principles that they agreed to?
    Mr. Holum. The two that are directly relevant here would be 
a completion of the demarcation negotiations and follow-on 
strategic arms reductions. The Standing Consultative Commission 
is scheduled to meet again the middle of this month to try to 
wrap up and incorporate the agreed principles established in 
Helsinki on theater defenses. As far as further strategic arms 
reductions are concerned, there would be a follow-on 
negotiation, a formal negotiation, after the Russians ratify 
START II.
    Senator Levin. So since we do not know when that is, we do 
not know when the START III negotiations would begin?
    Mr. Holum. That is right. We do not have a time table.
    Senator Levin. And is it hoped that the Standing 
Consultative Commission wrap-up of the treaty demarcation issue 
would occur within a matter of months, a few months?
    Mr. Holum. I certainly hope so. These have, as the Chairman 
noted, been long and difficult negotiations, so I will not 
assume success until it is completed. But I think that the 
leadership of the two countries has been very clear that the 
principles are now established for wrapping up the demarcation 
negotiations. And we should complete them in the next round of 
the SCC.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator.
    There are a number of statements appended to the agreement. 
One is related to components based on other physical principles 
and capable of substituting for ABM interceptor missiles, 
launchers, or radars. And it restricts and imposes limitations 
on such systems, and says that, and I quote this, ``They would 
be subject to discussion in accordance with Article XIII and 
agreement in accordance with Article XIV of the Treaty.''
    Does it not appear to you very clear that the development 
of a national missile defense system, as the administration is 
now proposing and has actually issued request for proposals to 
contractors to develop, is a clear statement of intent that 
requires us to discuss with our treaty partner, and agree, in 
accordance with Article XIV of the treaty, before we undertake 
that development?
    Mr. Holum. Again, Mr. Chairman, I have not made an 
assessment of that. I just do not know the answer.
    Senator Cochran. The facts seem to be clear from the 
actions being taken by the administration, first of all to 
propose that a national missile defense system be developed, 
then to set out a time frame for the development and the 
deployment if the threat is perceived to justify the 
deployment, that will clearly violate the clear and unambiguous 
terms of this treaty in a number of different respects. And I 
have tried to identify at least five during my statement and 
questions to you.
    Would it not seem appropriate to at least engage the 
Russians at this point in a preliminary round of discussions, 
to see if they agree with your interpretation or this 
administration's interpretation that we can proceed to develop 
a system under the request for proposals that we have issued, 
to get an indication as to whether or not they think that 
violates the treaty or does not, so we will know whether we are 
going to make the decision to amend the treaty, to have 
negotiations similar to the ones we are having on TMD, or 
whether we ought to consider terminating or withdrawing from 
the treaty?
    I do not think we can continue along this path very much 
longer before we recognize that those are the only options that 
we have.
    Mr. Holum. Well, Mr. Chairman, I think it would be a grave 
mistake to peremptorily withdraw from the ABM Treaty, for the 
reasons I have described in my statement. I also think it would 
be a mistake to prematurely begin discussions with the Russians 
on what may or may not be required in terms of amendments to 
the ABM Treaty, until we have made our own judgment as to what 
we want to accomplish.
    It seems to me that the determinant here of our national 
missile defense program, designed to deal with rogue state 
threats is going to be what the threat requires, not what the 
Russians think or what the treaty says. We will begin by 
determining what the national security requires. And once there 
is a program that is sufficiently developed in terms of its 
architecture and its details that we can make our own 
compliance judgment, then it seems to me that is the time to go 
to the Russians and say, ``We have an emerging threat that we 
take very seriously. We have designed a system to redress that 
threat and it requires--'' if this proves to be the case ``--
modification of the ABM Treaty in these specific respects.'' 
That would be the time to then begin discussions with the 
Russians, when we would have, it seems to me, a good basis for 
negotiations.
    And it seems to me that we need to approach these three 
different concerns in the proper order. The first one that we 
have--and it is a risk right now--is the Russian strategic 
arsenal. It is the only arsenal in the world that could rain 
overwhelming devastation on the United States. And that has a 
relevance to the ABM Treaty. The ABM Treaty is important to be 
able to continue the process of reducing those forces.
    There is a second danger that we need to worry about, which 
is the theater offensive threat. And that is a current risk. 
And we need to develop theater defenses to be able to deal with 
that, robust theater defenses. And we have gone to negotiate 
with our treaty partners to make clear that the treaty permits 
those.
    And remember that in the early days of the treaty the 
thought was, and the Department of Defense was limited by the 
premise that, we could not test against an incoming missile of 
more than 2 kilometers per second velocity, or engage at more 
than 40 kilometers above the earth's surface. We are now 
talking about interceptors or target missiles of 5 kilometers 
per second. That has been agreed by the two sides already. So 
that we have demonstrated in this process that this treaty can 
be adjusted and we will be able to meet our security 
requirements for theater missile defense.
    The third threat that the treaty is also relevant to is the 
danger of missile attack, ICBM attack, from rogue States. And 
that is a threat that is some time in the future. We are not 
complacent about it, and the ``3+3'' program is designed to 
deal with it.
    But in order to deal with that threat in the future, my 
argument is we should not throw away the benefits of the ABM 
Treaty for dealing with the larger immediate threat that exists 
right now. I think we can have our cake and eat it too, if we 
approach these dangers in the order in which they are arising.
    Senator Cochran. One of the ingredients of the statement 
that the Presidents issued following the Helsinki meeting was 
that the treaty ought to be enlarged to include additional 
parties. And that was, of course, made in connection with the 
theater missile defense demarcation discussions that are going 
on.
    Is it your impression that that extension of the treaty to 
include other parties would require us to negotiate with other 
parties in connection with a national missile defense system, 
as well as theater missile defense demarcation issues?
    Mr. Holum. Any subsequent amendment to the treaty would 
require agreement of the parties at that time. That is correct.
    Senator Cochran. Would that prolong, do you think, the 
period of time within which you could get an agreement like you 
are contemplating trying to get if we decide we need to deploy 
a national missile defense system?
    Mr. Holum. It is impossible to say for certain, but on the 
basis of our experience in the demarcation area, when the 
potential successor States have been participating in the 
discussions, that has not proved to be a complicating factor.
    They have sometimes had ideas of their own. They have 
participated to lesser or greater degrees in the discussions. 
But I think all of the additional participants--there are only 
three--have not impeded the negotiations.
    I suspect they would have a very strong interest, if the 
United States and Russia agreed on amendments dealing with 
national missile defense, in preserving the viability of the 
treaty and the strategic relationship between the United States 
and Russia, and would not impede action. But I cannot predict 
the future precisely.
    Senator Cochran. Do you have, based on your experience in 
this area, any confidence that once we developed a system--if 
we are able to achieve it in 3 years, the development of a 
system--and we decide to deploy it, that the deployment can 
take place in 3 years?
    Mr. Holum. In terms of the treaty inhibitions, obviously, 
it is hard to say. I am not going to comment on the technical 
aspects that are in the province of the Department of Defense. 
But I do not in any sense say that hard is hopeless. I think 
that almost everything we do in this field currently is 
difficult to accomplish. But I think that there is a reasonable 
prospect that we could negotiate a treaty amendment.
    And remember that if we cannot, then we always have the 
option of making a determination about extraordinary 
circumstances in our supreme national interests, if it came to 
that. I do not think it will, because I think we will be able 
to negotiate the necessary amendments to the treaty.
    Senator Cochran. Well, I am hopeful that, as we move down 
this path, whether it is ``3+3'' or 3-plus-infinity, that we 
keep in mind that our national security is more important than 
a treaty agreement, and particularly this ABM Treaty. And that 
is the issue that we may have to confront at some time. I am 
not ready to prejudge that, either.
    But I think it is important for us to reassure the American 
public that this Government is not going to refrain from 
protecting the security of our country against missile attack 
if we see that threat has emerged--if we have the technical 
capacity to do so, that we have the will to do so. I think they 
ought to be assured that we do have the will and the capacity 
to protect our nation's security, and not just wring our hands 
over whether we are going to get an agreement negotiated in 
time to save our lives.
    Mr. Holum. Mr. Chairman, I appreciate that comment. It is 
very important to emphasize, I think, to have on the record, 
that we are not defenseless against strategic missile attack 
now.
    Any country that would contemplate an attack on the United 
States, based on our overwhelming retaliatory capability, knows 
that their society would suffer an intolerable, devastating, 
overwhelming blow. So we should never neglect the fact that our 
deterrent capability exists and we have the will to use that.
    When you make the comment about our security and the 
treaty, part of the reason why I am adamant in trying to 
protect the ABM Treaty is, I think it is an instrument of our 
security. It is an important element in continuing the 
strategic arms reduction process. But at the same time, you are 
absolutely correct that the United States has to be prepared to 
defend itself. And if the treaty is in the way and cannot be 
amended--and I believe it can--then we have to contemplate 
further action. But this is something that I think there is a 
great deal of agreement on, more than we often appreciate, 
between the administration and Members of the Congress.
    Senator Cochran. We all do hope that our deterrent capacity 
has an effect, as we think it had on the old Soviet Union and 
its nuclear capability. But I do not know that anybody is 
reassured that it will have the same effect on rogue states who 
now seek to possess long-range missile capability and weapons 
of mass destruction. And so assuming that the deterrent works 
against those who do not seem to be rational to start with, or 
who measure costs and benefits very differently from the way we 
do, is problematical and is unsettling, at best. And so that is 
not a defense at all, if it does not work.
    Mr. Holum. That is why we should proceed with the ``3+3'' 
program. I agree.
    Senator Cochran. Senator Levin.
    Senator Levin. Again, I want to just ask you about the 
options which are being looked at under the ``3+3'' program. 
Some of those options are treaty-compliant; some of them are 
not treaty-compliant. Is that correct?
    Mr. Holum. I have not made a considered judgment on any of 
them, but we certainly contemplate the possibility that options 
would be not compliant with the treaty.
    Senator Levin. Do we also contemplate the possibility that 
options will be compliant with the treaty?
    Mr. Holum. It is conceivable. I just do not know the 
answer.
    Senator Levin. So we are looking at all the options.
    Mr. Holum. Right.
    Senator Levin. Whether or not they are treaty-compliant.
    Mr. Holum. Right.
    Senator Levin. I do not think we ought to exclude the 
possibility that one of the options, or more, that may be 
selected as the best technology will be treaty-compliant.
    Mr. Holum. Yes, I certainly would not exclude that outcome.
    Senator Levin. All right. So that is point number one.
    Number two: In addition to the question of the threat, as 
to what it looks like at the end of the 3 years, there are a 
couple of other important issues that we do not want to 
prejudge, it seems to me. One is the technology development and 
how far advanced it is. Is it not possible that we are going to 
be at a point in 3 years where the technology is simply not 
effective to do what we might want to do if there is a threat?
    Mr. Holum. I think that is possible, although I am not 
competent to assess the technology. I have read the assessments 
of the military leadership and others who are working on this, 
and they describe the program as high-risk in a number of 
respects because of the tight time limits.
    Senator Levin. All right. So that when the ``3+3'' program 
talks about assessing the threat at the end of 3 years, they 
are also in addition to that talking about looking at the 
effectiveness of the technology development as of that point, 
and the cost. Is that also true?
    Mr. Holum. That is true.
    Senator Levin. Because there are many threats out there, 
some of which can be delivered by other than a ballistic 
missile--including a suitcase, or a cruise missile--which may 
be more likely, and against which we are spending an awful lot 
less money than we might be urged to spend on national missile 
defense.
    So we would want to look at all of the potential threats, 
how they could be delivered from rogue nations, what would be 
the cost of defenses against them, and how it is best to spend 
our resources to defend against whatever that threat is. Would 
that be a fair statement?
    Mr. Holum. I agree with that.
    Senator Levin. Does the ``3+3'' allow for all of that?
    Mr. Holum. Yes.
    Senator Levin. Thank you.
    Senator Cochran. Mr. Holum, we appreciate very much your 
being here today. I think it is clear from the discussion that 
we have had that this is a complex issue. It is not easy to 
answer questions ``Yes'' or ``No,'' as we tend to have put them 
to you today. But at the very least, I think we can agree that 
there are many ambiguities that will have to be resolved, if we 
are going to both develop and deploy a defense against 
ballistic missile attack, even rogue ballistic missile attack; 
and that compliance determinations on specific system elements, 
even though they may be premature at this point, do not mean 
that they ought not to be considered and seriously confronted 
in terms of how we will deal with them if the administration 
ever acknowledges the threat emerging and convinces itself to 
deploy a missile defense system.
    So if now is not the right time to start answering these 
questions, I do not know when the right time is going to be. We 
can hope it is going to be far into the future, but we have no 
assurance of that. And so the fundamental question is whether 
Congress and the Executive Branch are going to work together to 
try to answer these questions, keeping in mind the security 
interests of the United States. It is something that I think we 
need to seriously consider and at least begin the discussion on 
at this time, rather than waiting until it may be too late.
    We appreciate your being here. We will continue these 
hearings. We are hopeful to have one hearing, at least one, 
each month during this session of the Congress, to try to 
understand further what our challenges are in this situation 
and in the proliferation area and the international security 
area.
    And we appreciate very much the excellent contribution made 
by my friend from Michigan, who is on the Armed Services 
Committee as well. Senator?
    Senator Levin. Well, thank you very much. And thank you, 
Mr. Chairman, for holding these hearings. These are really 
critically important subjects, and I appreciate the Chairman 
taking the time and putting in the effort that he has and his 
staff has in holding these hearings. I think they are going to 
be very useful to Members of the Senate.
    And I appreciate your testimony today, also, Mr. Holum, 
with I think some of the clearest statements of the importance 
of putting our security interests first, because that is the 
guiding star for all of us, I hope; but then trying to figure 
out how best we can achieve that interest through a combination 
of nuclear arms reductions and defenses against threats that 
are either real or could emerge over a reasonable period of 
time. And I think your testimony was very, very helpful in that 
regard. Thank you.
    Mr. Holum. Thank you.
    Senator Cochran. Thank you, Senator.
    The hearing is adjourned.
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              


Charts submitted for the record follow:

                           ABM TREATY ISSUES

                  3+3 National Missile Defense Program                  
                                                                        
               Issue                             Article                
                                                                        
Defense of the Territory...........             I                       
Location of NMD Deployment Areas...            III                      
Forward-Deployed X-Band Radars.....            III                      
Ground Based Interceptor Using               VI(a)                      
 Minuteman ICBMs.                                                       
Space and Missile Tracking System          V, Agreed                    
 (SMTS).                                 Statement D                    
                                                                        

                               __________

                           ABM TREATY ISSUES

                        Defense of the Territory

                               Article I

Treaty Text:

      Article I: ``Each party undertakes not to deploy ABM systems for 
a defense of the territory of its country and not to provide a base for 
such a defense, and not to deploy ABM systems for defense of an 
individual region except as provided for in Article III of this 
Treaty.''

Compliance Issue:

      Request for proposals for NMD lead system integrator contract 
states, ``The NMD system will provide defense of all territory in the 
50 states.''
                               __________

                           ABM TREATY ISSUES

                    Location of NMD Deployment Areas

                              Article III

Treaty Text:

      Article III: ``[W]ithin one ABM system deployment area having a 
radius of one hundred and fifty kilometers and containing ICBM silo 
launchers, a Party may deploy: (1) no more than one hundred ABM 
launchers and no more than one hundred ABM interceptor missiles at 
launch sites, (2) two large phased-array ABM radars . . . and (3) no 
more than eighteen [smaller] ABM radars . . .''

Compliance Issues:

      1. An NMD site in Alaska (request for proposals for NMD lead 
system integrator, C1/C2 architecture) would violate Article III's 
requirement to base ABM components within an ICBM deployment area.

      2. 200 interceptors (request for proposals for NMD lead system 
integrator, C3 architecture) at two sites would violate numerical 
constraints on missiles, launchers, and deployment areas.

                           ABM TREATY ISSUES

                     Forward-Deployed X-Band Radars

                              Article III

Treaty Text:

      Article II: ``[A]n ABM system is a system to counter strategic 
ballistic missiles or their elements in flight trajectory, currently 
consisting of (a) ABM interceptor missiles . . . (b) ABM launchers . . 
. and (c) ABM radars, which are radars constructed and deployed for an 
ABM role, or of a type tested in an ABM mode.''

      Article III: ``Within one ABM system deployment area having a 
radius of one hundred and fifty kilometers and containing ICBM silo 
launchers, a Party may deploy . . . two large-phased array ABM radars 
and . . . eighteen [smaller] ABM radars . . .''

Compliance Issue:

      Forward-deployed radars, if deployed for the purpose of 
supporting an NMD system or if of the same type as the Ground-Based 
Radar, would meet Article II's definition of an ABM radar. Deployment 
outside the Grand Forks deployment area would violate Article III.
                               __________

                           ABM TREATY ISSUES

            Ground-Based Interceptors Using Minuteman ICBMs

                             Article VI(a)

Treaty Text:

      Article VI(a): ``[E]ach Party undertakes not to give missiles, 
launchers, or radars, other than ABM interceptor missiles, ABM 
launchers, or ABM radars, capabilities to counter strategic ballistic 
missiles or their elements in flight trajectory, and not to test them 
in an ABM mode . . .''

Compliance Issue:

      Minuteman ICBMs are missiles other than ABM interceptor 
missiles. If used as ABM interceptors, they will have been given 
capabilities to counter strategic ballistic missiles and will have been 
tested in an ABM mode.
                               __________

                           ABM TREATY ISSUES

                 Space & Missile Tracking System (SMTS)

                      Article V/Agreed Statement D

Treaty Text:

      Article V: ``Each Party undertakes not to develop, test, or 
deploy ABM systems or components which are sea-based, space-based, or 
mobile land-based.''

      Agreed Statement D: ``[I]n the event ABM systems based on other 
physical principles and including components capable of substituting 
for ABM interceptor missiles, ABM launchers, or ABM radars are created 
in the future, specific limitations on such systems and their 
components would be subject to discussion . . . and agreement . . .''

Compliance Issue:

      If SMTS makes it possible to intercept ICBMs without detection 
by the Ground-Based Radar, SMTS could be considered a space-based ABM 
component, or a substitute for an ABM radar based on other physical 
principles.
      

                                   ALL-MARK 
</pre></body></html>
